     OFFICE OF JUSTICE PROGRAMS 

     OFFICE FOR VICTIMS OF CRIME 

  GRANTS AWARDED TO THE NEW JERSEY

VICTIMS OF CRIME COMPENSATION OFFICE 

         NEWARK, NEW JERSEY 



       U.S. Department of Justice 

     Office of the Inspector General 

              Audit Division 


      Audit Report GR-70-12-006 

              May 2012

                 OFFICE OF JUSTICE PROGRAMS 

     OFFICE FOR VICTIMS OF CRIME GRANTS AWARDED TO THE 

      NEW JERSEY VICTIMS OF CRIME COMPENSATION OFFICE 

                     NEWARK, NEW JERSEY 


                          EXECUTIVE SUMMARY 


      The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Victims of Crime Act (VOCA)
Compensation grant numbers 2005-VC-GX-0037, 2007-VC-GX-0041, and
2008-VC-GX-0056, awarded by the U.S. Department of Justice, Office of
Justice Programs (OJP), Office for Victims of Crime (OVC) to the New Jersey
Victims of Crime Compensation Office (NJVCCO). The main purpose of the
grants was to help reduce the financial burden incurred by victims of violent
crime and their families through payment for items such as medical and
hospital related expenses, counseling, funeral and burial expenses, or loss of
income related to the crime.

      The objective of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable and supported. In
addition, we evaluated program performance and accomplishments.

      We determined that NJVCCO generally complied with the grant
requirements we tested and all tested expenditures were found to be
allowable, supported, and in accordance with applicable laws, regulations,
guidelines, and the terms and conditions of the grants.

      The results of our audit are discussed in detail in the Conclusions
section of the report. Our audit objectives, scope, and methodology are
discussed in Appendix I.

       We provided a copy of the draft report to both NJVCCO and OJP for
their review and comment. The NJVCCO response is included as Appendix II
of this report, and the OJP response is included as Appendix III.

      Both NJVCCO and OJP acknowledged the report, but because there
were no findings or recommendations in the report, neither agency provided
further comment.

      Because this report contains no audit recommendations, this audit
report is closed.




                                      i
                                   TABLE OF CONTENTS


INTRODUCTION .......................................................................1 

Office of Justice Programs ............................................................1      

Office for Victims of Crime ............................................................2     

New Jersey Victims of Crime Compensation Office ..........................2                   

Audit Approach ...........................................................................3   


FINDINGS ................................................................................4 

Internal Control Environment .......................................................4 

Grant Expenditures ....................................................................5 

Requests for Grant Funding .........................................................7 

Budget Management and Control...................................................8 

Reporting...................................................................................9

Program Performance and Accomplishments ................................. 10 

Compliance with Grant Requirements........................................... 10 

Conclusions .............................................................................. 10 


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY........ 11 

APPENDIX II – NEW JERSEY VICTIMS OF CRIME 

    COMPENSATION OFFICE TO THE DRAFT AUDIT REPORT . 12 

APPENDIX III –OFFICE OF JUSTICE PROGRAMS RESPONSE 

    TO THE DRAFT AUDIT REPORT ....................................... 13 

                                   INTRODUCTION

      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Victims of Crime Act (VOCA)
Compensation grant numbers 2006-VC-GX-0037, 2007-VC-GX-0041, and
2008-VC-GX-0056, awarded by the U.S. Department of Justice Office of
Justice Programs (OJP), Office for Victims of Crime (OVC) to the New Jersey
Victims of Crime Compensation Office (NJVCCO). Between October 1, 2005
and October 7, 2007, the NJVCCO received three grants totaling
$15,920,000.1 The main purpose of the grants was to help reduce the
financial burden of victims of violent crime and their families through
payment for items such as medical and hospital related expenses,
counseling, funeral and burial expenses, or loss of income related to the
crime.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable and supported. In
addition, we evaluated program performance and accomplishments. Our
audit covered award activities from October 2005 through December 2008.

     As shown in the table below, the NJVCCO was awarded a total of
$15,920,000.

                    OFFICE FOR VICTIMS COMPENSATION 

                            AWARDS TO NJVCCO 

                             PROJECT      PROJECT     AWARD
              AWARD
                                 START DATE          END DATE           AMOUNT
     2006-VC-GX-0037                10/01/05            09/30/09      $ 5,620,000
     2007-VC-GX-0041                 10/01/06             09/30/10         6,124,000
     2008-VC-GX-0056                 10/01/07             09/30/11         4,176,000
     Total                                                            $15,920,000
           Source: OJP

Office of Justice Programs

      The Office of Justice Programs (OJP), within the U.S. Department of
Justice, provides the primary management and oversight of the grants we
       1
          NJVCCO was transferred from the New Jersey Department of Treasury to the New
Jersey Department of Law & Public Safety during the time grant 2008-VC-GX-0056 was
being spent. Because of this transfer, OJP required NJVCCO to return the remainder of
grant funds and reapply. Subsequently, NJVCCO was awarded the remainder of funds
under grant 2008-VC-GX-4056. Since this new grant technically was an extension of the
original one, unless otherwise noted in the report, we will refer to both grants under the
original grant number 2008-VC-GX-0056.


                                           - 1 -

audited. Through the programs developed and funded by its bureaus and
offices, OJP works in partnership with the justice community to provide
information, training, coordination, and innovative strategies and approaches
for addressing crime-related challenges confronting the justice system.

Office of Victims of Crime

       The Office for Victims of Crime (OVC) is one of five bureaus and one
office with grant making authority within OJP. OVC was established by the
1984 Victims of Crime Act (VOCA) to oversee diverse programs that benefit
victims of crime. The OVC administers the Crime Victim Compensation
formula grant program and awards a grant to each state, the District of
Columbia, the U.S. Virgin Islands, Guam, and Puerto Rico annually to
support state crime victim compensation programs.

New Jersey Victims of Crime Compensation Office

      The New Jersey Victims of Crime Compensation Office (NJVCCO) is
located in Newark, New Jersey. The NJVCCO’s mission is to provide
compensation to innocent victims of violent crime for some expenses they
suffer as a result of a crime.

      The NJVCCO was formerly called the New Jersey Victims of Crime
Compensation Board (VCCB) that acted as an independent organization that
was administratively within the New Jersey Department of Law and Public
Safety. In August 2007, the VCCB was abolished and replaced with the
New Jersey Victims of Crime Compensation Agency (VCCA). VCCA was also
moved to the New Jersey Department of Treasury and no longer acted as an
independent agency. In January 2008, the VCCA was renamed yet again
when it was transferred back to the Department of Law and Public Safety
and named the NJVCCO.

       During FY 2008, NJVCCO paid 1,766 victim compensation claims
totaling $10,265,598.2 Assaults, which included domestic violence related
claims, accounted for 63 percent of the total claims paid that year by
NJVCCO.




       2
         According to NJVCCO, funding sources include: (1) assessments paid by
defendants in various criminal and municipal courts throughout the state, (2) fees
generated from prisons and jail commissaries, and (3) federal grants.



                                           - 2 -

Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audited against were contained in the OJP Financial Guide and the award
documents. The OJP Financial Guide serves as a reference manual assisting
award recipients in their fiduciary responsibility to safeguard awarded funds
and ensure funds are used appropriately. We tested the NJVCCO’s:

     	 Internal control environment to determine whether the internal
        controls in place for the processing and payment of victim
        compensation claims were adequate to safeguard grant funds and
        ensure compliance with the terms and conditions of the grant.

     	 Grant expenditures to determine whether costs charged to the
        grants were allowable and supported.

     	 Requests for grant funds to determine whether the NJVCCO’s
        requests for funding reimbursements or advances were adequately
        supported, and if NJVCCO managed grant receipts in accordance with
        federal requirements.

    	 Budget management and control to determine whether the
       grantee adhered to the OJP-approved budget for expenditures of
       grant funds.

     	 Reporting to determine whether the required Financial Status
        Reports and progress reports were filed on time and accurately
        reflected grant activity.

     	 Program performance and accomplishments to determine
        whether the NJVCCO achieved grant objectives and to assess
        performance and grant accomplishments.

     	 Compliance with other grant requirements to determine
        whether NJVCCO complied with the terms and conditions specified in
        the individual grant award documents.

      When applicable, we also test for compliance in the areas of program
income, matching funds, and monitoring of subrecipients and contractors.
For these grants, we determined that NJVCCO generated no program
income, matching funds were not required, and no subrecipients or
contractors were paid with grant funds.



                                    - 3 -

                                 FINDINGS

       COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

        We determined that NJVCCO generally complied with
        grant requirements in the areas we tested. We found
        that there were policies and procedures in place to
        ensure proper use of grant funding, and all grant
        related expenditures were allowable and supported with
        proper documentation.

Internal Control Environment

       We began this audit by developing an understanding of the internal
controls the NJVCCO employed for the processing and payment of victim
compensation claims, in order to ensure these controls were consistent with
the terms and conditions of the grants we audited. We interviewed grant
officials and requested data from the accounting and claims processing
systems to determine whether controls were designed to properly account
for grant funds.

       An important aspect of processing claims is to have policies and
procedures in place to ensure consistent treatment of victim compensation
claims that result in allowable and supportable payments. We interviewed
staff who were directly involved in the processing of claims and they told us
that there was a written procedure manual developed many years ago but it
has not been continually updated.

      These staff members also told us current procedures include a
combination of this outdated manual as well as other unwritten procedures
developed over the years that they described for us in detail. The Executive
Director told us the NJVCCO is in the process of updating and revising the
manual for processing claims.

      We reviewed 225 claims and determined that the procedures described
to us were followed by the staff when providing payment for these claims,
and that all related expenditures were allowable and supported with proper
documentation. A detailed summary of our testing can be found below.




                                    - 4 -

Grant Expenditures

Testing

       For the three grants we audited, the NJVCCO’s accounting system
records contained over 10,000 grant-related transactions associated with
more than 3,000 claims for victim compensation. Of these, we selected a
statistical sample of 1,061 transactions, related to 225 claims, totaling
$1,842,600. We performed testing in order to determine whether
expenditures made with funds from these grants were allowable according to
the terms of the grants, supported with proper documentation, and
reasonable.

      We reviewed case files associated with each of the claims in order to
determine whether payments were properly supported by a complete
investigation of the claim. As part of our testing, we reviewed the
supporting documents that NJVCCO used to calculate the payment amount
and establish victim eligibility. These supporting documents included, but
were not limited to, death certificates, police reports, and medical bills.

     In all of the 225 case files we reviewed, we determined that the
expenditures were allowable and supported with proper documentation.

Administrative

       According to the VOCA Crime Victim Compensation Program
guidelines, grantees may retain up to 5 percent of each year’s grant for
administrative costs to expand, enhance, or improve the state's previous
level of effort in administering the VOCA grant program at the state level
and to support activities and costs that impact the delivery and quality of
services to crime victims throughout the state. Further, the grantee is
required to submit a statement to OVC that reports the amount of the total
grant award that will be allocated to administrative costs. We determined
the NJVCCO submitted the required statement for each of the grants we
reviewed.3 The following table describes the NJVCCO’s use of funds for
administrative costs.




      3
          Although NJVCCO submitted the required statement for the use of administrative
funds for grant 2008-VC-GX-0056, during our fieldwork, they had not yet obligated any
funds.


                                          - 5 -

                      NJVCCO Administrative Costs

                              Grant                  Grant
        Category
                       2006-VC-GX-0037          2007-VC-GX-0041
  Salaries                      $ 276,374              $ 279,580
  Office Furniture                   4,363                      0
  Equipment                            264                  8,332
  Temporary Personnel                    0                 18,274
  Total                       $ 281,001                 $306,186
   Source: NJVCCO’s accounting records

Property

      For both grants, the NJVCCO expended a total of $12,959 for office
furniture and computer related equipment. The NJVCCO provided us with
purchase orders and invoices for all related expenditures and in reviewing
the documentation, we determined the expenditures were allowable in
accordance with New Jersey State guidelines and properly supported. We
physically inspected each piece of property and compared identification
numbers to the inventory records and determined that each item was
properly documented in the NJVCCO’s inventory records, was properly
accounted for, and was being used as intended.

Personnel

      According to VOCA program guidelines, administrative grant funds can
only support that portion of a staff person's time devoted to the VOCA
program and if the staff person has other functions, the proportion of their
time spent on the VOCA assistance program must be documented using
regular time and attendance records. Further, the documentation must
provide a clear audit trail for the expenditure of grant funds.

      The NJVCCO obligated a total of $574,228 in administrative costs
related to personnel for grants 2006-VC-GX-0037 and 2007-VC-GX-0041.
These costs included full-time State employees as well as contracted
temporary personnel. The NJVCCO provided us with time and attendance
sheets that supported temporary personnel costs of $18,274. The
documentation included the following: total gross salary paid, number of
hours worked, appropriate supervisory signatures, and the department in
which the person worked. Based on this documentation, we determined that
the expenditures were allowable in accordance with VOCA guidelines.




                                    - 6 -

      Staff salaries accounted for a total of $555,954 in administrative costs.
We requested time and attendance sheets related to all salaried personnel
that were paid with grant funds. According to grant officials, all funds
allocated to salaries were pooled into the total agency (NJVCCO) salaries for
the particular fiscal year. We were also told that all of the employees that
work for the NJVCCO work on providing compensation to victims of crime.

       We tested salaries by comparing total salaries paid during the grant
activity period to the total amount of grant funding applied to salaries during
that same period. We also reviewed all payroll documentation for all
employees paid during the same time frame.

       We determined for 2006-VC-GX-0037 that grant funds were used to
pay for all victim compensation claims between October 2006 and May 2007.
During this period, the NJVCCO incurred $1,792,267 in total salaries, of
which grant funds supported $276,374, which represents 15.4 percent of the
total salaries paid during that period.

       We determined for 2007-VC-GX-0041 that grant funds were used to
pay for all victim compensation claims between May 2007 and April 2008.
During this period, the NJVCCO incurred $2,318,723 in total salaries, of
which grant funds supported $279,580, which represents 12 percent of the
total salaries paid during that period.

      We determined that all grant funds used for administrative costs were
allowable according to the program guidelines and adequately supported.

Requests for Grant Funding

      The OJP Financial Guide establishes the methods by which the
Department of Justice makes payments to grantees. The methods and
procedures for payment are designed to minimize the time elapsed between
the transfer of funds by the government and the disbursement of funds by
the grantee. Grantees may request grant funding on a reimbursable basis or
in advance of making actual outlays. However, if grant funding is requested
as an advance, the grantee must ensure that cash on hand is kept to a
minimum and disbursed immediately or within 10 days.

     We determined that between January 2007 and November 2008, the
NJVCCO requested and received grant funding totaling $14,168,060.

      According to the NJVCCO officials, funding requests were typically
done quarterly and as reimbursements. We compared the requests for
funding to the accounting records and determined that for grants


                                     - 7 -

2006-VC-GX-0037 and 2008-VC-GX-0056, the NJVCCO requested grant
funding on a reimbursable basis.

      However, for grant 2007-VC-GX-0037, OJP determined that the
NJVCCO had excess cash on hand between May 2007 and January 2008.
This occurred because the NJVCCO requested the entire grant award amount
of $6,124,000 in May 2007 and expended only $1,538,151 for the reporting
period ending June 2007.

      OJP worked with the NJVCCO to refund the excess cash on hand and
the issue was resolved by January 2008. The NJVCCO’s request for the
remainder of the grant’s funds was on a reimbursement basis.

      There have been no funding requests for the second half of the 2008
grant (2008-VC-GX-4056).

Budget Management and Control

      VOCA funds supplement state efforts to compensate crime victims.
The formula for VOCA compensation grants to states is based on a
percentage of state payments to crime victims from the previous year
(currently 60 percent). Also, as described earlier in this report, grantees
may retain up to 5 percent of each year’s grant for administrative costs.

      Because all three grants were considered formula grants, the NJVCCO
was not required to submit budgets for approval. However, it was required
to submit an annual Crime Victim Compensation State Certification Form.
The information reported on these forms was used to calculate the annual
formula grant amount. We determined that the NJVCCO submitted the
required forms.

      As described in the Expenditure section of this report, we determined
that the NJVCCO submitted the required statements for the use of 5 percent
of total grant funds for administrative costs. We further determined that the
funds obligated for administrative costs were allowable by the program
guidelines and adequately supported.




                                     - 8 -

Reporting

Financial Status Reports

      OJP monitors the financial aspects of grants through Financial Status
Reports (FSRs).4 FSRs provide OJP grant managers current and cumulative
information on expenditures and obligations on a quarterly basis and are one
way OJP monitors grants. According to the OJP Financial Guide, FSRs should
be submitted within 45 days of the end of the most recently passed
quarterly reporting period.

      Between May 2006 and May 2009, the NJVCCO submitted a total of
24 FSRs for the three grants. We tested these FSRs for accuracy and
timeliness.

       By comparing the amount of total expenditures reported on the FSRs
with expenditure data from the accounting records maintained by the
NJVCCO, we determined that all FSRs accurately reflected grant related
activities.

       We also found that the NJVCCO submitted all of the required FSRs for
all three grants, and that of the 24 FSRs required, 22 were timely and
2 were immaterially late.

Progress Reports

      According to the VOCA program guidelines, grantees are required to
submit an annual performance report. The reports request specific
information about claims for compensation, such as types of crimes
compensated, disposition of claims, payments for compensable expenses,
and use of funding for administrative purposes. The performance report
covers the federal fiscal year ending September 30 and is due to OVC by
December 30 of the same year.

      We reviewed the three progress reports submitted by the NJVCCO
during the grant periods audited for accuracy and timeliness. We
determined the information contained in these reports was consistent with
financial and other documents related to the grants. We also determined all
three reports were submitted on time.


         These reports are no longer called Financial Status Reports. Effective for the
       4


quarter beginning October 1, 2009, grant recipients report expenditures online using the
Federal Financial Report (FFR-425) Form no later than 30 days after the end of each
calendar quarter.


                                           - 9 -

Program Performance and Accomplishments

       As part of this audit, we measured the NJVCCO’s success in meeting
grant objectives. The general objectives of the VOCA program, as described
in the grant award documents, were to provide compensation to Federal and
State victims of crime. The compensation covers crime related expenses
such as medical, mental health, loss of support or earnings, funeral
expenses, housing, and relocation costs. The NJVCCO specified that it would
use 5 percent of the grant awards for administrative costs to include
salaries, information technology, and operations.

      Based on our testing of expenditures, described earlier, we determined
that 95 percent of grant funds for each of the three awards was spent on
compensation to victims of crime. We further determined that the NJVCCO’s
use of administrative funds were allowable according to the grant guidelines.

Compliance with Grant Requirements

      In addition to the general grant requirements, we tested for
compliance with the terms and conditions specified in the individual grant
award documents. We determined that the award documentation included
13 special conditions that were the same for each of the three grants. We
reviewed the special conditions and tested compliance with those that were
most significant to the grants. We determined that the NJVCCO complied
with all of the special conditions we tested for each of the three grants.

Conclusions

      In review of the Victims of Crime Act (VOCA) Compensation grants
awarded to NJVCCO, we found that NJVCCO generally complied with the
grant requirements we tested and all of the expenditures that we tested
were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and the terms and conditions of the grants.




                                   - 10 -
                                                               APPENDIX I 



               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. We also assessed grantee program performance in
meeting grant objectives and overall accomplishments. The objective of our
audit was to review activities in the following areas: (1) internal control
environment, (2) grant expenditures, including personnel and indirect costs,
(3) drawdowns, (4) budget management and control, (5) matching,
(6) program income, (7) financial status and progress reports, (8) program
performance and accomplishments, (9) grant requirements, and
(10) monitoring of subrecipients and contractors. We determined matching,
program income, and monitoring of subrecipients and contractors were not
applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we planned and performed the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained
provided a reasonable basis for our findings and conclusions based on our
audit objectives.

      Our audit concentrated on the award periods of the grants and
included award activities from October 2005 through December 2008.
This was an audit of the Victims of Crime Act (VOCA) Compensation grant
numbers 2006-VC-GX-0037, 2007-VC-GX-0041, and 2008-VC-GX-0056.
The grantee had a total of $14,168,059 in requests for grant funding
through December 2008.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audited against are contained in the Office of Justice Programs Financial
Guide and the award documents.

      In addition, we reviewed the timeliness and accuracy of Financial
Status Reports and Progress Reports, evaluated performance of grant
objectives, and considered internal control issues. However, we did not test
the reliability of the financial management system as a whole.




                                   - 11 -
                                                                                                  APPENDIX II 



  NEW JERSEY VICTIMS OF CRIME COMPENSATION OFFICE 

        RESPONSE TO THE DRAFT AUDIT REPORT 





CHRJS CHRJSTlE                       State of New Jersey                                     JEFFREY S. CHI ESA
   Gouernor                            OJOFICE OF THE A t TORNEY GENERAL                       Attorney General
                                   DEPARTMENT OF LAw AND PUBLIC SAFETY
KIM GUADAGNO                              OIVlSION OF CRIMINAL JUSTI CE                      STEPHEN J. TAYLOR
  Lt. Gouernor                     VIcnMS OF CRIME COMPENSATION OFFICE                             Direc/or
                                                      50 Park P lace
                                                    Newark, NJ 07102                         l\1ARSETfA LEE
                                   Teleph one: (973) 648-2107 Fax: (973) 648-3937             Executiue Director
                             Website: www.l\.ivictims.org E-mai l: njvictims@njvictims.org


May 9, 20 12

Mr. Thomas O. Puerzer, Regional Audit Manager
U.S. Department of Justice
Office of the Inspector General
Philadelph ia Regional Audit Office
701 Market Street, Suite 201
Philadelphia, PeIU1sylvania 19 106


Dear Mr. Fuerzer:

On behalf of Executive Director Marsetta Lee, who is away from the Office, please accept this response from
the New Jersey Victims of Crime Compensation Office, concerning the audit report of the Office of Justice
Programs (OJP) grant numbers 2006-VC-GX-0037, 2007-VC-GX-0041 and 2008-VC-GX-0056 that were
awarded to us. We are in agreement with your find ings that the VCCO was in compliance with the grant
requirements and expenditures that were tested.

Thank you very much. If you have any questions you can contact me at (973) 648-7948.


Very Truly Yours,



J~
Assistant Attorney General
Dep uty Director


Cc: Office of Justice Programs
    810 Seventh Street, NW
    Washington, D.C. 20531

Cc: Marsetta Lee, Executive Director
    Victims of Crime Compensation Office
    50 Park Place
    Newark, New Jersey 07 102

                                         N£WJERSEY Is A N EQUAL OPPORTUNITY EMPLOYER




                                                      - 12 -
                                                                                        APPENDIX III 



                OFFICE OF JUSTICE PROGRAMS 

            RESPONSE TO THE DRAFT AUDIT REPORT 



                                                   U.S. Department of Justice

                                                   Office of Justice Programs

                                                  Office of Audit. Assessment, and Management




MEMORANDUM TO:                Thomas O. Puerzer
                              Regional Audit Manager
                              Philade lphia Regional Audit Office
                              Office oflhe Inspector General

FROM:                         Maureen A. He~lCbcr~ If
                              Director
                                                      ~ ".A,
                                             ~(~!,;r"'-                         r
SUBJECT:                      Response to the Draft Audit Report, OffiCI'. ofJustice Programs,
                              Office/or Victims o/Crime Grants Awarded to the New Jersey
                              Victims o/Crime Compensation Office. Newark, New Jersey

Thi~ memonmdum i~ in referem;e to yo ur correspondence, dated March 30, 20 12, InUJ~mitting
the above-referenced draft audit report for the New Jersey Victims of Crime Compensation
Office. The draft rcport docs not contain any rccommendation~. The Office of Justice Programs
has reviewed the draft report and does not have allY comments.

We appreciate thc opportunity to review and eomment on the draft report. [f you have any
que~tionsor require additional information, plea!'e contact Jeffery A. Haley, Deputy Dife(:tor,
Audit and Review Division, on (202) 616-2936.

cc:     Jeffery A. Haley
        Deputy Director, Audit and Rev iew Division
        Office of Audit, As:>cssmcnt, and Management

        Joye E. Frost
        Acting Director
        Office for Victims of Crime

        James Canlm!]
        Deputy Director
        Office for Victil)l~ of Crime




                                            - 13 -
cc:   Denni s Greenhouse
      Deputy Director
      Office for Victims of Crimc

      Kisha Grecn
      Program Specialist
      Office for Victims of Crime

      Louise M. Duhamel, Ph.D.
      Acting Director, Audit Liaison Group
      Internal Review and Evalualion Office
      Justicc Managemcnt Division

      Marcia L Wallace
      Director, Office of Operations - Audit Division
      Office of the Inspector General




                                              2




                                          - 14 -
